No. 20-440
IN THE

Supreme Court of the United States
MINERVA SURGICAL, INC.,
Petitioner,
v.
HOLOGIC, INC.,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Thomas G. Saunders, a member of
the bar of this Court, certify that the accompanying Brief for Pharmaceutical Research
and Manufacturers of America as Amicus Curiae Supporting Respondent contains 5,008
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Executed on March 31, 2021.

THOMAS G. SAUNDERS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
thomas.saunders@wilmerhale.com

